USCA4 Appeal: 20-6062

Doc: 9

Filed: 05/27/2020

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6062
ANDRE KING,
Petitioner - Appellant,
v.
WARDEN MCFADDEN,
Respondent - Appellee.

Appeal from the United States District Court for the District of South Carolina, at Aiken.
J. Michelle Childs, District Judge. (1:14-cv-00091-JMC)
Submitted: May 21, 2020

Decided: May 27, 2020

Before AGEE and QUATTLEBAUM, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Affirmed by unpublished per curiam opinion.
Andre King, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-6062

Doc: 9

Filed: 05/27/2020

Pg:2of2

PER CURIAM:
Andre King appeals the district court’s order denying his motion to reconsider the
denial of his motion to extend or reopen the period to note an appeal from the order denying
his 28 U.S.C. § 2254 (2018) petition. We have reviewed the record and find no reversible
error. Accordingly, we affirm for the reasons stated by the district court. King v. Warden
McFadden, No. l:14-cv-00091-JMC (D.S.C. Dec. 9, 2019).

We dispense with oral

argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED

2

Case: l:14-cv-00091-JMC

Document #: 52-1

Date Filed: 05/31/2019

Page 1 of 8

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
AIKEN DIVISION
Andre King,
Petitioner,
v.
Warden McFadden,
Respondent.

)
)
)
)
)
)
)
)
)

Civil Action No.: l:14-cv-00091-JMC

ORDER AND OPINION

Before the court for review is Petitioner Andre King’s “Motion to Reopen the Petitioners]
Time to File an Appeal” (ECF No. 51). Petitioner requests that the court reopen the time to file an
appeal of this court’s Order accepting the Magistrate Judge’s Report and Recommendation
(“Report”). (ECF No. 51 at 1.) The court DENIES Petitioner’s Motion.
I. FACTUAL AND PROCEDURAL BACKGROUND
On August 26, 2015, the court accepted the Magistrate Judge’s Report and granted
Respondent Warden McFadden’s (“Respondent”) Motion for Summary Judgment (ECF No. 19),
denied Petitioner’s Motion to Hold in Abeyance (ECF No. 23), and denied Petitioner’s 28 U.S.C.
§ 2254 Petition for Writ of Habeas Corpus (ECF No. 1). (ECF No. 48 at 9.) On that same day,
the court mailed its Order accepting the Magistrate Judge’s Report to Petitioner. (ECF No. 50.)
On May 24, 2019, Petitioner filed the instant “Motion to Reopen the Petitioner's] Time to File an
Appeal.” (ECF No. 51.) Petitioner asserts that on September 21, 2015—within thirty (30) days
of this court’s August 26, 2015 Order accepting the Magistrate Judge’s December 9, 2014
Report—he “deposited [a] notice of appeal of [the court’s August 26, 2015 Order] in the prison
mailing system to the District Court of South Carolina.” (ECF No. 51 at 2.) In support of his
Motion, Petitioner provided the court with an affidavit in which he asserts that he received the
1

•Vs.

Case: l:14-cv-00091-JMC

Document #: 52-1

Date Filed: 05/31/2019

Page 2 of 8

court’s August 26, 2015 Order on September 9, 2015, and “on September 21, 2015[,] . . . handed
[his] legal mail to the [LJieber Correctional Institution Mail Room officials to be mailed to th[e]
[cjourt.” (ECF No. 51-1 at 2.) Petitioner also states that “on November 17, 2016[,] [he] . . . sent
th[e] [c]ourt a letter regarding [his] notice of appeal,” but did not receive a response. (Id. at 2.)
Petitioner provided the court with a copy of this November 17, 2016 letter, in which Petitioner
“inquire[s] about the status of [his] appeal,” asserts that he “deposited a Notice of Appeal in the
institutional mailbox,” “never received a response from the District Court or the Fourth Circuit
Court of Appeals,” and “made two (2) inquiries to the Office of the Clerk of Court in the interim
with no response to either query,” and “formally requests] that the District Court reopen the time
in which to file the Notice of Appeal.” (ECF No. 51-2 at 1.) Petitioner further states in the letter
that he attached a copy of the Notice of Appeal that he deposited in the Lieber Correctional
Institution mailbox, but he did not submit a copy of that Notice of Appeal with the copy of the
November 17, 2016 letter he filed with the instant Motion. (See id.)
II. DISCUSSION
Although Petitioner titled his Motion as “Motion to Reopen [] Petitioners] Time to File
an Appeal,” and he requests that the court “reopen the . . . time to file an appeal to this court
regarding his writ of habeas corpus,” the court liberally construes Petitioner’s Motion as a motion
to accept his notice of appeal as timely. See Erickson v. Pardus, 551 U.S. 89, 94 (2007) (“A
document filed pro se is to be liberally construed,” and “a pro se complaint, however inartfully
pleaded, must be held to less stringent standards than formal pleadings drafted by lawyers.”
(quoting Estelle v. Gamble, 429 U.S. 97, 106 (1976))). Reopening’the time to file an appeal is

2

Case: l:14-cv-00091-JMC

Document #: 52-1

Date Filed: 05/31/2019

Page 3 of 8

governed by Federal Rule of Appellate Procedure 4(a)(6),1 which does not appear anywhere in
Petitioner’s Motion. (See ECF No. 51.) Instead, Petitioner cites Federal Rule of Appellate
Procedure 4(c)(1) and Houston v. Lack, 487 U.S. 266 (1988), arguing his Notice of Appeal was
filed when he “handed [it] to prison officials to be mailed to this [c]ourt.” (Id. at 3.) Federal Rule
of Appellate Procedure 4(c) provides that
(1) If an institution has a system designed for legal mail, an inmate confined there
must use that system to receive the benefit of this Rule 4(c)(1). If an inmate files a
notice of appeal in either a civil or a criminal case, the notice is timely if it is
deposited in the institution’s internal mail system on or before the last day for filing
and:
Under Rule 4(a)(6) of the Federal Rules of Appellate Procedure,
The district court may reopen the time to file an appeal for a period of 14 days after
the date when its order to reopen is entered, but only if all the following conditions
are satisfied:
(A) the court finds that the moving party did not receive notice under
Federal Rule of Civil Procedure 77(d) of the entry of the judgment or order
sought to be appealed within 21 days after entry;
(B) the motion is filed within 180 days after the judgment or order is entered
or within 14 days after the moving party receives notice under Federal Rule
of Civil Procedure 77(d) of the entry, whichever is earlier; and
(C) the court finds that no party would be prejudiced.
The court notes that under Rule 4(a)(6), the district court can reopen the time to file an appeal in a
civil case only if all the conditions of the Rule are met. See Fed. R. App. P. 4(a)(6) (“The district
court may reopen the time to file an appeal for a period of 14 days after the date when its order to
reopen is entered, but only if all the following conditions are satisfied . . . .” (emphasis added)).
The first of those conditions is “the court finds that the moving party did not receive notice under
Federal Rule of Civil Procedure 77(d) of the entry of the judgment or order sought to be appealed
within 21 days after entry.” Fed. R. App. P. 4(a)(6)(A). Petitioner, by his own admission in the
affidavit he submitted with the instant Motion, received the court’s August 26, 2015 Order “at
[Ljieber Correctional Institution on September 9, 2015,” (ECF No. 51-1 at 1), which is within
twenty-one (21) days of the Order’s entry. See id. Therefore, because Petitioner received the
court’s August 26, 2015 Order within twenty-one (21) days of its entry, the court could not reopen
the time for Petitioner to file an appeal of that Order under Rule 4(a)(6), as non-receipt of the order
sought to be appealed is a necessary condition for reopening the time to file an appeal under Rule
4(a)(6). See Fed. R. App. P. 4(a)(6)(A).
3

Case: l:14-cv-00091-JMC

Document #: 52-1

Date Filed: 05/31/2019

Page 4 of 8

(A) it is accompanied by:
(i) a declaration in compliance with 28 U.S.C. § 1746—or a notarized
statement-setting out the date of deposit and stating that first-class postage is
being prepaid; or
(ii) evidence (such as a postmark or date stamp) showing that the notice was
so deposited and that postage was prepaid; or
(B) the court of appeals exercises its discretion to permit the later filing of a
declaration or notarized statement that satisfies Rule 4(c)(l)(A)(i)
Fed. R. App. P. 4(c)(l)(A)-(B). And under Houston v. Lack, a pro se inmate is entitled to the
benefit of the “prison mailbox rule,” under which the court regards a pro se inmate’s petition or
motion as having been filed upon delivery to prison authorities for mailing to the court. 487 U.S.
'O
266, 276 (1988). See also United States v. McNeill, 523 Fed. App’x 979, 981 (4th Cir. 2013) (“A
pro se litigant’s legal papers are considered filed upon ‘delivery to prison authorities, not receipt
by the clerk.’” (quoting Houston, 487 U.S. at 275)). Therefore, the court construes Defendant’s
Motion as requesting that the court find Defendant filed a Notice of Appeal on September 21,
2015, when he claimed he “deposited [it] in the prison mailing system,” and allow him to proceed
with an appeal of the court’s August 26, 2015 Order denying his Habeas Corpus Petition. {Id. at
2, 3.) See Erickson, 551 U.S. at 94.
The trouble here is that the court never received a Notice of Appeal from Petitioner, or any
of the letters he claims to have sent inquiring about the status of his appeal. {See ECF Nos. 51,
51-1, 51-2.) In United States v. McNeill, confronted with a similar situation, the United States
Court of Appeals for the Fourth Circuit, in an unpublished opinion, determined that “where a
prisoner claims to have submitted a legal document to prison mail authorities, but no document
arrives or is filed at the district court,” the district court must make factual findings “as to whether
the legal documents in question were actually delivered to the prison mail system on time.” 523
4

Case: l:14-cv-00091-JMC

Document#: 52-1

Date Filed: 05/31/2019

Page 5 of 8

F. App’x at 982. The appellant in McNeill was mistakenly told by another inmate to file his 28
U.S.C. § 2255 petition with the district court in the district where the petitioner was incarcerated
instead of with the the district court in the district where the petitioner was sentenced. Id. at 980.
Appellant McNeill claimed “he filled out a standard . . . form to set out his claims for relief, and
then hand delivered his petition with first-class postage to prison mailroom staff.” Id. Later,
McNeill conferred with another inmate, who told McNeill that he sent his petition to the wrong
court. Id. Appellant McNeill wrote a letter to the district court where he had sent his petition,
requesting confirmation that it had been filed, but received no response. Id. Appellant McNeill
then sent a second letter to the court, to which he received a response informing him that his
petition would be returned to him because it had been filed in the wrong court. Id. Appellant
McNeill then filed a motion in the proper district court, the Eastern District of North Carolina,
requesting that the court “accept his petition as timely filed along with a ‘Sworn and Incorporated
Memorandum of Law as Timely Filed’ pursuant to 28 U.S.C. § 1746.” Id. at 981. The court
denied McNeill’s motion, and denied his motion for reconsideration, finding “the prison mailbox
rule did not apply because the envelope in question was not correctly addressed to the proper
recipient.” Id.
The Fourth Circuit began its analysis by recognizing that “McNeill’s case presents
a matter of first impression for the Fourth Circuit, but the disposition and reasoning of other
circuits in similar cases is informative.” Id. at 981. Specifically, the court considered the
United States Court of Appeals for the Ninth Circuit’s decision in Huizar v. Carey, 273
F.3d 1220 (9th Cir. 2001), and the United States Court of Appeals for the Eleventh Circuit’s
decision in Allen v. Culliver, 471 F.3d 1196 (11th Cir. 2006) (per curiam). Id. at 981-82.
The Fourth Circuit held that when “a prisoner claims to have submitted a legal document

5

Case: l:14-cv-00091-JMC

Document #: 52-1

Date Filed: 05/31/2019

Page 6 of 8

to prison mail authorities, but no document arrives or is filed at the district court,” the
district court must make “clear factual findings” that the prisoner did or did not submit the
legal documents at issue. See id. at 982. Because the district court in McNeill did not make
clear factual findings, the Fourth Circuit remanded the case to the district court with the
following instructions:
On remand, the district court must answer two narrow questions. First, the court
must determine whether McNeill sent his petition on time. The petitioner’s
diligence after a timely submission of his petition is irrelevant. There is nothing in
§ 2255, nor any corresponding rule, requiring that a pro se litigant diligently
monitor his petition after it has been submitted. Nor did the Supreme Court require
diligence in Houston. The district court here should not consider petitioner’s
diligence in making its factual determinations. This inquiry is strictly limited to
what transpired before June 21,2011, when the statute of limitations for filing the
petition ended.
Id. at 983. Accordingly, the court “must [first] determine whether [Petitioner] sent his [Notice of
Appeal] on time.” Id. at 983. See also id. at 982 (“Huizar and Allen illustrate the fact-bound
nature of the inquiry where a prisoner claims to have submitted a legal document to prison mail
authorities, but no document arrives or is filed at the district court.” (emphasis added)); Allen, 471
F.3d at 1198 (“[I]t is clear from the district court’s order that it did not actually find as a fact that
Allen had delivered a notice of appeal to the prison authorities on March 28, 2004; rather, the
district court merely assumed that fact. Accordingly, on remand, the district court may inquire
further as to the actual facts concerning whether or not, and when, a notice of appeal was delivered
to the prison authorities.”). Based on the facts before the court, the court cannot conclude that
Petitioner delivered a Notice of Appeal to the prison authorities on September 21, 2015. First,
Petitioner has not provided the court with any documentation supporting his claim that he delivered
a Notice of Appeal to the Lieber Correctional mail room on September 21, 2015. See Fed. R. App.
P. 4(c)(1)(A) (“If an inmate files a notice of appeal in either a civil or a criminal case, the notice

6

Case: l:14-cv-00091-JMC

Document #: 52-1

Date Filed: 05/31/2019

Page 7 of 8

is timely if it is deposited in the institution’s internal mail system on or before the last day for filing
and: (A) it is accompanied by: (i) a declaration in compliance with 28 U.S.C. § 1746—or a notarized
statement—setting out the date of deposit and stating that first-class postage is being prepaid; or
(ii) evidence (such as a postmark or date stamp) showing that the notice was so deposited and that
postage was prepaid.”). This is particularly curious given that with the instant Motion, Petitioner
provided the court with a copy of the November 17, 2016 letter he asserts he sent to the court
inquiring about the status of his appeal. (See ECF No. 51-2.) In that letter, Petitioner stated that
he attached a copy of the Notice of Appeal he sent on September 21, 2015, to the letter. (See id.
at 1.) However, though Petitioner provided the court with a copy of the November 17,2016 letter,
he did not provide the court with a copy of the Notice of Appeal. Moreover, between January 10,
2014, when Petitioner filed his Habeas Petition with the court, and September 21, 2015, when
Petitioner claims to have delivered his Notice of Appeal to prison officials, the court received eight
(8) other filings from Petitioner, including some in which the prison mailbox rule was at issue.2
(See ECF Nos. 23, 24, 27, 34, 35, 41, 42, 43.) These eight (8) other successful filings call into
question Petitioner’s claim in his affidavit that he delivered four (4) filings (a Notice of Appeal
and three (3) letters) to the Lieber Correctional Institution mailroom that were never received by
the court, because up until that point, it appears that every mailing Petitioner deposited in the

2 On December 9, 2014, the Magistrate Judge issued a Report recommending that the court grant
summary judgment to Respondent and deny Petitioner’s Motion to hold his Habeas Petition in
Abeyance. (ECF No. 36.) Because the court did not receive any objections by the December 29,
2014 deadline, the court adopted the Magistrate Judge’s Report. (ECF No. 38.) On January 5,
2015, the court received from Petitioner objections to the Report. (ECF No. 41.) The envelope in
which Petitioner’s objections had been sent bore a “RECEIVED” stamp from the mailroom at
Lieber Correctional Institution dated December 29, 2014. (ECF No. 41-2 at 1.) On January 26,
2015, Petitioner filed a Motion to Alter Judgment based on the prison mailbox rule, arguing his
objections were timely filed under Houston. (ECF No. 42.) On August 18,2015, the court agreed
with Petitioner and granted his Motion to Alter Judgment. (ECF No. 44.)
7

*

Case: l:14-cv-00091-JMC

Document #: 52^1

Date Filed: 05/31/2019

Page 8 of 8

Lieber Correctional Institutional mail room were received by the court. See Westberry v. United
States, No. 4:10-CR-00093-RBH-l, 2013 WL 5914399, at *1 (D.S.C. Oct. 31,2013) (“Conclusory
allegations contained within affidavits do not require a hearing. ‘Thus, no hearing is required if
the petitioner’s allegations ‘cannot be accepted as true because they are contradicted by the record,
inherently incredible, or conclusions rather than statement of fact.’” (citation omitted) (quoting
Arredondo v. United States, 178 F.3d 778, 782 (6th Cir. 1999))). Accordingly, as Petitioner has
submitted no independent proof of the mailing of his Notice of Appeal, and the court received
several other mailings from Petitioner prior to when Petitioner claims to have delivered his Notice
of Appeal to prison officials, the court finds Petitioner did not deliver a Notice of Appeal on time,
and must deny Petitioner’s Motion. See Roberts v. McKenzie, No. AW-12-CV-2474, 2013 WL
3179102, at *4 (D. Md. June 20, 2013), aff’d, 566 F. App’x 226 (4th Cir. 2014) (“When a court
does not receive a pleading within a reasonable time after the date upon which an inmate claims
to have mailed it, it is appropriate to require independent proof of the mailing date, such as mail
logs, prison trust fund records, or receipts for postage, before giving the inmate the benefit of the
prison mailbox rule.”).
III. CONCLUSION
The court DENIES Petitioner’s “Motion to Reopen the Petitioner's] Time to File an Appeal”
(ECF No. 51).
IT IS SO ORDERED.

United States District Judge
May 31,2019
Columbia, South Carolina

8

i

- Case: l:14-cv-00091-JMC

Document#: 64-1

Date Filed: 12/09/2019

Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
AIKEN DIVISION
Andre King,

)
)
)
)
)
)
)
)

Petitioner,
v.
Warden McFadden,
Respondent

Civil Action No. l:14-cv-00091-JMC

ORDER AND OPINION

Petitioner Andre King filed the instant action against Respondent Warden McFadden
seeking a writ of habeas corpus pursuant to 28 U.S.C. § 2254. (ECF No. 1.)
This matter is before the court on Petitioner’s Motion to Alter and Amend Judgment
pursuant to Rule 59(e) of the Federal Rules of Civil Procedure.1 (ECF No. 54.) Specifically,
Petitioner seeks to alter and amend the court’s May 31, 2019 Order (the “May Order”) in which
the court denied Petitioner’s “Motion to Reopen the [] Time to File an Appeal.” (ECF No. 52
(referencing ECF No. 51).) For the reasons set forth below, the court DENIES the Motion to
Alter and Amend.
I.

JURISDICTION

The court has jurisdiction ever this matter pursuant to 28 U.S.C. § 2254, which provides

l

The court observes that also pending is Petitioner’s Motion to Correct the Clerical Error of the
Court pursuant to Rule 60(a) of the Federal Rules of Civil Procedure. (ECF No. 61.) In this
Motion, Petitioner alleges that a clerical error exists on the court’s electronic docket because his
“Motion to Reopen the Petitioner's] Time to File an Appeal” (ECF No. 51) was not docketed by
that title. Instead, the Clerk of Court labeled the “Motion to Reopen” on the docket as a “Motion
for Extension of Time to Appeal/Reopen the Petitioner’s Time to File an Appeal and Notice of
Address Change.” (Id.) Rule 60(a) allows the court to “correct a clerical mistake or a mistake . .
. found in . . . the record.” Fed. R. Civ. P. 60(a). Upon its review, the court observes that
Petitioner has not established any basis for a finding that the docket title chosen by the Clerk is a
clerical error. Moreover, docket titles for motions do not have any legal force or effect and the
granting of Petitioner’s Motion would have little practical significance. Therefore, Petitioner’s
Motion to Correct the Clerical Error of the Court (ECF No. 61) is DENIED.

, Case: l:14-cv-00091-JMC

Document #: 64-1

Date Filed: 12/09/2019

Page 2 of 6

that a federal district court has jurisdiction to entertain a § 2254 petition when the petitioner is
“in custody pursuant to the judgment of a State court... in violation of the Constitution or laws
or treaties of the United States. Id.
II.

LEGAL STANDARD AND ANALYSIS

In the May Order, the court made the following observations in denying Petitioner’s
Motion to Reopen the Time to File an Appeal:
Although Petitioner titled his Motion as “Motion to Reopen [] Petitioners] Time
to File an Appeal,” and he requests that the court “reopen the . . . time to file an
appeal to this court regarding his writ of habeas corpus,” the court liberally
construes Petitioner’s Motion as a motion to accept his notice of appeal as timely.
. . . Reopening the time to file an appeal is governed by Federal Rule of Appellate
Procedure 4(a)(6), which does not appear anywhere in Petitioner’s Motion. (See
ECF No. 51.) Instead, Petitioner cites Federal Rule of Appellate Procedure 4(c)(1)
and Houston v. Lack, 487 U.S. 266 (1988), arguing his Notice of Appeal was filed
when he “handed [it] to prison officials to be mailed to this [c]ourt.”

The trouble here is that the court never received a Notice of Appeal from
Petitioner, or any of the letters he claims to have sent inquiring about the status of
his appeal. (See ECF Nos. 51, 51-1, 51-2.)

Based on the facts before the court, the court cannot conclude that Petitioner
delivered a Notice of Appeal to the prison authorities on September 21, 2015.
First, Petitioner has not provided the court with any documentation supporting his
claim that he delivered a Notice of Appeal to the Lieber Correctional mail room
on September 21, 2015. See Fed. R. App. P. 4(c)(1)(A) (“If an inmate files a
notice of appeal in either a civil or a criminal case, the notice is timely if it is
deposited in the institution’s internal mail system on or before the last day for
filing and: (A) it is accompanied by: (i) a declaration in compliance with 28
U.S.C. § 1746—or a notarized statement-setting out the date of deposit and
stating that first-class postage is being prepaid; or (ii) evidence (such as a
postmark or date stamp) showing that the notice was so deposited and that
postage was prepaid.”). This is particularly curious given that with the instant
Motion, Petitioner provided the court with a copy of the November 17, 2016 letter
he asserts he sent to the court inquiring about the status of his appeal. (See ECF
No. 51-2.) In that letter, Petitioner stated that he attached a copy of the Notice of
Appeal he sent on September 21, 2015, to the letter. (See id. at 1.) However,
though Petitioner provided the court with a copy of the November 17, 2016 letter,
2

- Case: l:14-cv-00091-JMC

Document #: 64-1

Date Filed: 12/09/2019

Page 3 of 6

he did not provide the court with a copy of the Notice of Appeal. Moreover,
between January 10, 2014, when Petitioner filed his Habeas Petition with the
court, and September 21, 2015, when Petitioner claims to have delivered his
Notice of Appeal to prison officials, the court received eight (8) other filings from
Petitioner, including some in which the prison mailbox rule was at issue. (See
ECF Nos. 23, 24, 27, 34, 35, 41, 42, 43.) These eight (8) other successful filings
call into question Petitioner’s claim in his affidavit that he delivered four (4)
filings (a Notice of Appeal and three (3) letters) to the Lieber Correctional
Institution mailroom that were never received by the court, because up until that
point, it appears that every mailing Petitioner deposited in the Lieber Correctional
Institutional mail room were received by the court. See Westberry v. United
States, No. 4:10-CR-00093-RBH-l, 2013 WL 5914399, at *1 (D.S.C. Oct. 31,
2013) (“Conclusory allegations contained within affidavits do not require a
hearing. ‘Thus, no hearing is required if the petitioner’s allegations ‘cannot be
accepted as true because they are contradicted by the record, inherently
incredible, or conclusions rather than statement of fact.’” (citation omitted)
(quoting Arredondo v. United States, 178 F.3d 778, 782 (6th Cir. 1999))).
Accordingly, as Petitioner has submitted no independent proof of the mailing of
his Notice of Appeal, and the court received several other mailings from
Petitioner prior to when Petitioner claims to have delivered his Notice of Appeal
to prison officials, the court finds Petitioner did not deliver a Notice of Appeal on
time, and must deny Petitioner’s Motion. See Roberts v. McKenzie, No. AW-12CV-2474, 2013 WL 3179102, at *4 (D. Md. June 20, 2013), aff d, 566 F. App’x
226 (4th Cir. 2014) (“When a court does not receive a pleading within a
reasonable time after the date upon which an inmate claims to have mailed it, it is
appropriate to require independent proof of the mailing date, such as mail logs,
prison trust fund records, or receipts for postage, before giving the inmate the
benefit of the prison mailbox rule.”).
(ECF No. 52 at 2-4, 6-8.) Petitioner seeks to alter and amend the foregoing pursuant to Rule 59.
A.

Applicable Standard under Rule 59(e)
Rule 59 allows a party to seek an alteration or amendment of a previous order of the

court. Fed. R. Civ. P. 59(e). Under Rule 59(e), a court may “alter or amend the judgment if the
movant shows either (1) an intervening change in the controlling law, (2) new evidence that was
not available at trial, or (3) that there has been a clear error of law or a manifest injustice.”
Robinson v. Wix Filtration Corp., 599 F.3d 403, 407 (4th Cir. 2010); see also Collison v. Int’l
Chem. Workers Union, 34 F.3d 233, 235 (4th Cir. 1994). It is the moving party’s burden to
establish one of these three grounds in order to obtain relief. Loren Data Corp. v. GXS, Inc., 501

3

^ Case: l:14-cv-00091-JMC

Document#: 64-1

Date Filed: 12/09/2019

Page 4 of 6

F. App’x 275, 285 (4th Cir. 2012). The decision whether to reconsider an order under Rule 59(e)
is within the sound discretion of the district court. Hughes v. Bedsole, 48 F.3d 1376, 1382 (4th
Cir. 1995). A motion to reconsider should not be used as a “vehicle for rearguing the law,
raising new arguments, or petitioning a court to change its mind.” Lyles v. Reynolds, C/A No.
4:14-1063-TMC, 2016 WL 1427324, at *1 (D.S.C. Apr. 12, 2016) (citing Exxon Shipping Co. v.
Baker, 554 U.S. 471, 485 n.5 (2008)).
B.

Petitioner’s Arguments
In his Motion, Petitioner argues that the court should reconsider the May Order because it

results in the commission of either a clear error of law or a manifest injustice to him. (ECF No.
54 at 8.) In support of his argument, Petitioner asserts that he timely submitted his Notice of
Appeal based on the language in Rule 4(c) of the Federal Rules of Appellate Procedure.2 (ECF
No. 54 at 3.) Moreover, Petitioner asserts that Appellate Rule 4(c) protects him because “in his
Affidavit to this [cjourt the petitioner specifically had informed this [cjourt that on September
21, 2015 he handed his [Njotice of Appeal regarding his habeas corpus to [Ljieber C.I. prison
officials.” (ECF No. 54 at 3.) Based on the foregoing, Petitioner contends that by not granting
his right to appeal when he handed his notice to prison officials, the court committed error and/or
2 Rule 4(c) of the Federal Rules of Appellate Procedure provides:
If an institution has a system designed for legal mail, an inmate confined there
must use that system to receive the benefit of this Rule 4(c)(1). If an inmate files
a notice of appeal in either a civil or a criminal case, the notice is timely if it is
deposited in the institution’s internal mail system on or before the last day for
filing and: (A) it is accompanied by: (i) a declaration in compliance with 28
U.S.C. § 1746—or a notarized statement—setting out the date of deposit and
stating that first-class postage is being prepaid; or (ii) evidence (such as a
postmark or date stamp) showing that the notice was so deposited and that
postage was prepaid; or (B) the court of appeals exercises its discretion to permit
the later filing of a declaration or notarized statement that satisfies Rule
4(c)(l)(A)(i).
.App. P. 4(c).
4

“ ► Case: l:14-cv-00091-JMC

Document #: 64-1

Date Filed: 12/09/2019

Page 5 of 6

manifest injustice by (1) disregarding the requirements of Appellate Rule 4(c) and the precedent
set forth in Houston v. Lack, 487 U.S. 266 (1988) and United States v. McNeill, 523 F. App’x
979 (4th Cir. 2013); and (2) not holding “an evidentiary hearing regarding when the [Petitioner
had deposited his [Njotice of Appeal to prison officials.” (ECF No. 54 at 5-8.)
C.

The Court’s Review
Petitioner is seeking to alter and amend the May Order on the basis that the court’s

decision was either a clear error of law or resulted in a manifest injustice to Petitioner. Clear
error occurs when the reviewing court “is left with the definite and firm conviction that a mistake
has been committed.” United States v. Harvey, 532 F.3d 326, 336 (4th Cir. 2008) (internal
quotation marks omitted); see also United States v. Martinez-Melgar, 591 F.3d 733, 738 (4th
Cir. 2010) (“[Cjlear error occurs when a district court’s factual findings are against the clear
weight of the evidence considered as a whole.”) (internal quotation marks omitted); Miller v.
Mercy Hosp., Inc., 720 F.2d 356, 361 n.5 (4th Cir. 1983) (explaining that a district court’s factual
finding is clearly erroneous if “the finding is against the great preponderance of the evidence”)
(internal quotation marks omitted). Manifest injustice occurs where the court “has patently
misunderstood a party, or has made a decision outside the adversarial issues presented to the
Court by the parties, or has made an error not of reasoning but of apprehension . . . .” Campero
USA Corp. v. ADS Foodservice, LLC, 916 F. Supp. 2d 1284, 1292-93 (S.D. Fla. 2012) (citations
omitted).
Upon review of the instant Motion, the court observes that Petitioner’s arguments add
very little new substantive argument to what he has already presented on the aforementioned
issues. (See, e.g., ECF Nos. 51, 51-1, 51-2, 54, 54-1, & 54-2.) A Rule 59(e) motion should not
be used as an opportunity to rehash issues already ruled upon because a litigant is displeased

5

• * Case: l:14-cv-00091-JMC

Document#: 64-1

Date Filed: 12/09/2019

Page 6 of 6

with the result. See Hutchinson v. Staton, 994 F.2d 1076, 1082 (4th Cir. 1993) (stating that
“mere disagreement does not support a Rule 59(e) motion”); see also Consulting Eng’rs, Inc. v.
Geometric Software Solutions & Structure Works LLC, 2007 WL 2021901, at *2 (D.S.C. July 6,
2007) (“A party’s mere disagreement with the court’s ruling does not warrant a Rule 59(e)
motion, and such motion should not be used to rehash arguments previously presented or to
submit evidence which should have been previously submitted.”). In the May Order (ECF No.
52), the court cited to appropriate substantive case law and provided specific reasoning to
support its decision to find that Petitioner did not deliver a Notice of Appeal on time. The May
Order expressly explains why (1) Petitioner’s Affidavit lacks credibility, (2) an evidentiary
hearing is unnecessary, and (3) Appellate Rule 4(c) is inapplicable based on the record before the
court. (See ECF No. 52 at 6-8.) As a result, the court is not persuaded that entry of the May
Order resulted in the commission of either clear error of law or manifest injustice. Accordingly,
the court must deny Petitioner’s Motion to Alter and Amend Judgment.
III. CONCLUSION
For the reasons set forth above, the court hereby DENIES Petitioner Andre King’s
Motion to Alter and Amend Judgment pursuant to Rule 59(e) of the Federal Rules of Civil
Procedure. (ECF No. 54.)
IT IS SO ORDERED.

United States District Judge
December 9, 2019
Columbia, South Carolina

6

Additional material
from this filing is
available in the
Clerk's Office.

